Department of Health and Human Services
                   OFFICE OF

              INSPECTOR GENERAL




  TYLER PROSTHETICS, INC.,

  GENERALLY MET MEDICARE

DOCUMENTATION REQUIREMENTS

 FOR LOWER LIMB PROSTHETIC

          CLAIMS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.



                                                   Patricia Wheeler

                                               Regional Inspector General

                                                   for Audit Services


                                                       August 2014
                                                      A-06-13-00049
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

    Tyler Prosthetics, Inc., received $23,080 in inappropriate Medicare payments for lower
    limb prostheses during the period January 1, 2012, through June 30, 2013.


                                                INTRODUCTION

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews found that lower limb prosthetic claims did
not always meet Medicare Part B coverage requirements. 1 Tyler Prosthetics, Inc. (Tyler
Prosthetics), a durable medical equipment (DME) supplier in Tyler, Texas, received a high
amount of Medicare payments for lower limb prosthetic claims.

OBJECTIVE

Our objective was to determine whether Medicare payments to Tyler Prosthetics for lower limb
prosthetic services were appropriate.

BACKGROUND

Medicare Coverage of Durable Medical Equipment

Title XVIII of the Social Security Act (the Act) established Medicare Part B, which provides
supplementary insurance for medical and other health services. Part B pays for DME, which
includes prosthetics. 2 A lower limb prosthetic is an artificial replacement for any or all parts of
the leg and provides an individual who has an amputated limb with the opportunity to perform
functional tasks, particularly walking, which may not be possible without the device.

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program and
contracts with four DME Medicare administrative contractors to process and pay DME claims.
Chapter 5 of the CMS Medicare Program Integrity Manual (Medicare Manual) identifies
requirements that suppliers must meet to receive payment for lower limb prosthetic claims. 3

Tyler Prosthetics

Tyler Prosthetics is a DME supplier in Tyler, Texas, that supplies lower limb prostheses to
Medicare beneficiaries.




1
    See Appendix A for a list of previous OIG reviews on lower limb prosthetics.

2
    The Act, §§ 1832(a)(1) and 1861(s)(6)(8)(9).

3
    CMS Publication 100-08.



Medicare Part B Lower Limb Prosthetic Claims Paid to Tyler Prosthetics (A-06-13-00049)                 1
HOW WE CONDUCTED THIS REVIEW

We reviewed 120 lower limb prosthetic claims totaling $1,558,904 in Part B payments received
by Tyler Prosthetics during the period January 1, 2012, through June 30, 2013. We examined
documentation that Tyler Prosthetics maintained to determine whether it met the requirements
set forth in the Medicare Manual. We did not conduct a medical review to determine whether
the services were medically necessary.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                                FINDING

Chapter 5 of the Medicare Manual identifies requirements that suppliers must meet to receive
payment for lower limb prosthetic claims. Section 5.2.3 requires that suppliers obtain a detailed
written order that is signed by the beneficiary’s physician.

Medicare payments to Tyler Prosthetics for lower limb prosthetic services were not always
appropriate. Specifically, Tyler Prosthetics inappropriately received Medicare payment for two
lower limb prosthetic claims totaling $23,080. Tyler Prosthetics did not have the required
detailed written orders to support these claims. Tyler Prosthetics officials could not explain why
the orders were missing.

                                        RECOMMENDATION

We recommend that Tyler Prosthetics refund $23,080 to the Federal Government.

TYLER PROSTHETICS, INC., COMMENTS

In written comments on our draft report, Tyler Prosthetics concurred with our finding and
identified measures it has taken to ensure that the errors do not continue to occur. Tyler
Prosthetics’ comments are included in their entirety as Appendix C.




Medicare Part B Lower Limb Prosthetic Claims Paid to Tyler Prosthetics (A-06-13-00049)              2
      APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS:

                       LOWER LIMB PROSTHESES


               Report Title                           Report Number                      Date Issued
 Durable Medical Equipment Claims                      A-07-12-05035                     08/16/2013
 Paid by Noridian Healthcare
 Solutions, LLC, Did Not Always Meet
 the Requirements of the Local
 Coverage Determination for Lower
 Limb Prostheses
 Durable Medical Equipment Claims                      A-07-13-05040                     08/09/2013
 Paid by National Heritage Insurance
 Company, Inc., Did Not Always Meet
 the Requirements of the Local
 Coverage Determination for Lower
 Limb Prostheses
 CGS Administrators, LLC, Paid                         A-06-12-00055                     07/12/2013
 Unallowable Lower Limb Prosthetics
 Claims
 Lower Limb Prosthetics Claims Paid                    A-07-12-05029                     04/01/2013
 to Ozark Prosthetics and Orthotics
 Were Not Always Supported by
 Adequate Documentation
 Questionable Billing by Suppliers of                 OEI-02-10-00170                    08/17/2011
 Lower Limb Prostheses




Medicare Part B Lower Limb Prosthetic Claims Paid to Tyler Prosthetics (A-06-13-00049)                 3
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY


SCOPE


We reviewed 120 lower limb prosthetic claims totaling $1,558,904 in Part B payments received
by Tyler Prosthetics during the period January 1, 2012, through June 30, 2013. We examined
documentation that Tyler Prosthetics maintained to determine whether it met the requirements
set forth in the Medicare Manual. We did not conduct a medical review to determine whether
the services were medically necessary.

Our objective did not require a review of the overall internal control structure of Tyler
Prosthetics. Therefore, we limited our internal control review to Tyler Prosthetics’ procedures
related to lower limb prosthetic claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from CMS’s National Claims History file,
but we did not assess the completeness of the file.

We conducted our fieldwork at Tyler Prosthetics’ office in Tyler, Texas, in January 2014.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed applicable Federal laws, regulations, and CMS manuals;

    •	 held discussions with Tyler Prosthetics officials regarding their knowledge of Federal
       requirements and claims documentation;

    •	 used CMS’s National Claims History file to identify Medicare Part B lower limb
       prosthetic claims paid to Tyler Prosthetics with dates of service from January 1, 2012,
       through June 30, 2013;

    •	 selected a judgmental sample of lower limb prosthetic claims and analyzed the 

       documentation on file for these claims at Tyler Prosthetics; and 


    •	 discussed our results with Tyler Prosthetics.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Part B Lower Limb Prosthetic Claims Paid to Tyler Prosthetics (A-06-13-00049)           4
                 APPENDIX C: TYLER PROSTHETICS, INC., COMMENTS





                                   TYLER PROSTHETICS, INC
                                          701 Turtle Creek Drive
                                            TYLER, TX 75701
                                   PH: 903-595-2600 FAX: 903-595-2604


            July31 , 2014



            U.S. Department of Health and Human Services
            Office of Inspector General

            To whom it may concern,

            Regarding the (OIG), draft report entitled Tyler Prosthetics Generally Met Medicare
            Documentation Requirements for Lower Limb Prosthetic Claims. We at Tyler Prosthetics Inc.
            are in concurrence with the fmdings of the (OIG), and would also like to report that we have
            taken measures to make sure that we do not make tbe same mistakes again. These include, but
            are not limited to, regular self audits, on a monthly basis in place of quarterly audits, and
            purchase of software, that bas been implemented company wide and has helped with
            efficiency, and compUance. This software bas also allowed us to become as paperless as
            possible. Thank you for your consideration, and time. We at Tyler Prosthetics strive to be 100%
            appropriate, compliant, and professional, while providing the highest level ofmedicaUy
            necessary care possible.




            James B. McPherson sr. CP, LP.
            Practitioner in Charge




Medicare Part B Lower Limb Prosthetic Claims Paid to Tyler Prosthetics (A-06-13-00049)                        5
